Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL



 INDIAN ALCOHOL AND SUBSTANCE ABUSE:
     LEGISLATIVE INTENT AND REALITY




                 -, sERVICE"




                  JI7
               'l1ti'dW



              OCOBER 199
                       OFFCE OF INSPECTOR GENERA
The mission of the Offce of Inspector General (OIG), as mandated by Public       Law 95- 452 , as
amended , is to protect the integrity of the Department of Health and Human Servce ' (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits , investigations , and
inspections conducted by three OIG operating components: the Offce of Audit Servce, the
Offce of Investigations , and the Offce of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program , and management problems , and recommends courses to
correct them.

                           OFFICE OF AUDIT SERVICE
The OIG' s Offce of Audit Servces (OAS) provides all auditing servces for HHS , either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrng out their respective responsibilties and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and effciency throughout the Department.

                           OFFICE OF INTIGATIONS
The OIG' s  Offce of Investigations (01) conducts criminal , civil , and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions
administrative sanctions , or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                 OFFCE OF EVALUATION AN INSPECTONS
The OIG' s Offce of Evaluation and Inspections (OEI) conducts short- term management and
program evaluations (called inspections) that focus on issues of concern to the Department
the Congress , and the public. The findings and recommendations contained in these inspection
reports generate rapid , accurate , and up- to- date information on the effciency, vulnerabilty,
and effectiveness of departmental programs. This report was prepared in the San Francisco
regional offce under the direction of Kaye D. Kidwell , Regional Inspector General , and
Paul A Gottlober , Deputy Regional Inspector General. Project staff:

REGION                                                   HEQUARTERS
Deborah Harvey                                           Alan Levine

Donald Loeb
Brian Pattison

For additional copies of this report, please contact Kathy Dezotte at (415) 556- 6830.
                ;",.   +~'-


Department of Health and Human Servces
        OFFICE OF
   INSPECTOR GENERAL



 INDIAN ALCOHOL AND SUBSTANCE ABUSE:
     LEGISLATIVE INTENT AND REALITY




                          , sERVICE"




               '1
                          JI7
                       'l1ti'd3U



         OcrOBER 199 OEI-09-92-00l0
               EXECUTIVE SUMMAR Y

PUROSE€
This inspection assesses the Indian Health Servce s coordination of alcohol and€
substance abuse programs.

BACKGROUN€
Alcohol and substance abuse are the foremost health concerns for American Indians
and Alaska Natives (hereafter referred to as " Indians ). Four of the top 10 causes of
death among Indians are alcohol- and drug-related injuries , chronic liver disease and
cirrhosis , suicide , and murder.

The Office of Inspector General (OIG) conducted this inspection at the request of the
Senate Select Committee on Indian Afairs. The Committee requested that the OIG
provide information to assist in the reauthorization of Indian alcohol and substance
abuse legislation. Congress enacted the Indian Alcohol and Substance Abuse
Prevention and Treatment Act of 1986 , P. L. 99- 570 , to provide a coordinated and
comprehensive attack on Indian alcohol and substance abuse with a particular
emphasis on youth. As required by the law, the Secretaries of Interior and Health and
Human Servces entered into a Memorandum of Agreement. To determine the extent
to which Congressional intent has been implemented , we intervewed officials from the
Public Health Servce s (PHS) Indian Health Servce (IHS) and the Bureau of Indian
Afairs (BIA) and reviewed laws , regulations , and policies that address the
coordination of Indian alcohol and substance abuse programs.

FIINGS€
       ms and BIA hove not achied th leel of coordintin envine               by Congres

       lied coorditin unrm cont of care and an                        holiti approach
       for treatig Indian alcohol and sustance abuse
RECOMMNDATION€
Th   Indn Heallh Service, in conjuntin wih the Bureau of Indian Affair
                                                            , shoul€
rev€
   , updte, and streaml the Memrand of Ageement wiJh the goal of
deeloping a practical plan of actin

AGENCY COMMNT€

The PHS agreed with the OIG recommendation and in its comments on the draft€
report discusses actions it has taken or plans to take to address the specific issues.€
                                                      . . . . . . . . . .. ........................... ... .. .. ....... .. ..
             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                TABLE OF CONTENTS

EXCU SUMY

INOl)l1CTON ...............................................                                                                      1

FIINGS. .
  Fragmentary, Sporadic ,     and l)eficient Coordination

  l1ndermined and Incomplete Servces

RECOMMNDATION
APPENICE
  Appendix A:     Memorandum of Agreement: Status of Major Provisions
                   as of Spring 1992 ............................... A-

  Appendix B:     Agency Comments                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. B-
                          INTRODUCTION€
PUROSE€
This inspection assesses the Indian Health Servce s coordination of alcohol and€
substance abuse programs.

BACKGROUN€
Alcohol and substance abuse are the foremost health concerns for American Indians
and Alaska Natives (hereafter referred to as " Indians ). Four of the top 10 causes of
death among Indians are alcohol and drug related injuries (18 percent of all deaths),
chronic liver disease and cirrhosis (5 percent), suicide (3 percent), and murder
(3 percent ).

The Office of Inspector General (OIG) conducted this inspection at the request of the
Senate Select Co=ittee on Indian Afairs. The Committee requested that the OIG
provide information to assist in the reauthorization of Indian alcohol and substance
abuse legislation. The Committee also requested the Department of Interior s Offce
of Inspector General to review compliance with legislative requirements for alcohol
and substance abuse programs.



In 1976 ,Congress enacted the Indian Health Care Improvement Act , P.L. 94- 437, to
respond to all aspects of Indian health including prevention and primary care. The
Act s stated purpose is to "meet the national goal of providing the highest possible
                                               , Congress has appropriated funds€
health status to Indians no. " As part of the Act
annually for the treatment and control of alcohol and substance abuse among Indians.€
The 1988 amendments to the Act call for the Department of Health and Human€
Servces ' Indian Health Servce (IHS), the Department of Interior s Bureau of Indian
Afairs (BIA), and the Indian tribes to coordinate their alcohol and substance abuse€
programs with their mental health programs.€

The Indian Alcohol and Substance Abuse Prevention and Treatment Act of 1986

  L. 99- 570 ,
             Subtitle C, more specifically addresses Indian alcohol and substance
abuse. With this Act, Congress sought to provide a comprehensive coordinated attack
on Indian alcohol and substance abuse with a particular emphasis on youth. Congress
directed the Secretaries of Interior and Health and Human Servces to enter into a
Memorandum of Agreement no later than 120 days after the law was enacted.

The IHS funds or directly provides comprehensive health servces , including alcohol€
and substance abuse programs , for Indians. Within each of the 12 IHS area offices
full- time coordinators provide training and technical assistance to Indian alcohol and


      Anti-Drug Abuse Act of 1986 " Section 4202 (4)-(5).
substance abuse programs. To meet the needs of the Indian communities , area offices
can vary their staffing and operations. The area directors report directly to the IHS
Deputy l)irector. At the headquarters level , IHS created the Alcoholism and
Substance Abuse Program Branch , now located in Albuquerque , New Mexico. The€
branch , which has no line authority over the area offices , provides training, technical
assistance , guidance, oversight , and fuding to the area offices and the alcohol and
substance abuse programs.

The BIA serves as the Federal Government s principal agent with federally-recognized
Indian tribes. It provides or funds law enforcement , judicial servces , social servces
and education through 12 area offices , 84 local- level agencies, and 180 schools. Within
BIA the Offce of Alcohol and Substance Abuse Prevention provides leadership and€
direction for all BIA alcohol and substance abuse prevention activities.€

METHOl)OLOGY€

To determine the extent to which Congressional intent has been implemented , we
identifed , collected , and reviewed laws, regulations , and policies that address the
coordination of Indian alcohol and substance abuse programs. We obtained
information through wrtten requests to IHS headquarters. We focused first on the
Memorandum of Agreement between IHS and BIA and requested (1) the
Organizational Master Action Plan , (2) review guidelines , (3) the minimum standards
compliance plan , (4) Tribal Action Plans and Local Action Plans , and (5) tribal
comprehensive reports. We then focused on Memoranda of Agreement between IHS
and other Federal agencies and departments and requested documentation that
ilustrates coordination activities.

We intervewed offcials from IHS and BIA headquarters offices and discussed€
coordination and Memorandum of Agreement implementation. We visited IHS
headquarters offces in Rockvlle, Maryland and Albuquerque, New Mexico. We
visited BIA headquarters in Washington , nc. and spoke with officials from the Office
of Alcohol and Substance Abuse Prevention , Division of Law Enforcement , Branch of
Judicial Servces , Division of Social Servces , and Office of Indian Education Programs.€
We conducted 21 headquarters intervews and spoke with 31 individuals.

We also intervewed offcials from all IHS and BIA area offices. We conducted in-
person intervews with offcials in four IHS and four BIA offices and visited selected
alcohol and substance abuse programs. We conducted telephone intervews with
officials in all other area offices. In each case , we intervewed the area director and
the alcohol and substance abuse coordinator. In some offices , we spoke with project
officers , alcohol and substance abuse specialists , or others who administer or monitor
the alcohol and substance abuse programs. We conducted 61 area office intervews
and spoke with 67 individuals.

We also intervewed headquarters officials from the Department of Education. They€
described their l)rug Free Schools program and their coordination activities with BIA.
        , "





                                 FINDINGS€
IHS AN BIA HAVE NOT ACHVED                  TH LEVE OF COORlINATION
ENIONE BY CONGRE
Th €   Memra of Ageemnt formlied th need for coordtin
As required by the law , the Secretaries of Interior and Health and Human Servces
entered into a Memorandum of Agreement. The Agreement was published in the
Federal Register  on March 26, 1987 and specifically directs IHS and BIA to
coordinate resources to " assist Indian tribes and Alaska Native villages to achieve their
goals in the prevention , intervention , treatment , and follow-up of alcohol and
substance abuse. " It outlines the roles and responsibilities of IHS , BIA and the tribes
and details short- and long- term goals.

Many IHS and BIA offcials praised the Memorandum of Agreement for initiating€
coordination where none previously existed. Typical was the comment of an IHS
offcial Before the legislation , BIA washed their hands of substance abuse because
it' s a disease. IHS would not treat people with law and order problems because it was
not their jurisdiction.

ms and BIA hove not implemented many of th       Ageement's   provisons€
Despite their mutual desire for coordination , IHS and BIA officials have had limited
success in accomplishing the Agreement s goals. Major provisions that remain
incomplete include periodic reviews of both the Memorandum of Agreement and the
Organizational Master Action Plan , Tribal Action Plans and Local Action Plans , and€
tribal comprehensive reports. For more detailed information on the major provisions
of the Memorandum of Agreement , please see the Appendix.

The law requires the Departments of Interior and Health and Human Servces to
review the Memorandum of Agreement annually. This has not been done since 1988.
Both IHS and BIA officials believe the Memorandum of Agreement should be
updated to reflect their accomplishments and to refocus their efforts. At the€
beginning of her term , the current Director of BIA' s Office of Alcohol and Substance
Abuse Prevention declined an invitation from IHS to update the Memorandum of
Agreement. She wanted time to gain a better understanding of her responsibilities.€
Later, both agencies deferred the update until IHS issued its report on the scope of€
the Indian alcohol and substance abuse problem. The IHS did release this report in€
February 1992.

                                                                    , "




Severl barrrs   iniJ efective coordtin between ms and BIA
Barriers to coordination include:


       Differing missions


       As indicated in the background section of this report , IHS and BIA have very
       different roles and missions. An IHS official summarized We have different
       missions. Cooperation is realistic , but should reflect these missions. " Many
       IHS and BIA offcials believe that (a) IHS should take the lead in
       implementing the legislation and have control over programs related to
       treatment and assessment and (b) BIA should provide support by using their
       law enforcement , judicial servces , social servces , and educational activities to
       provide referrals , prevention , and aftercare.

       Differing headquarters staff structures

       For IHS , the Alcoholism and Substance Abuse Program Branch has primary
       responsibilty for all headquarters activities related to alcohol and substance
       abuse. In contrast, BIA' s Office of Alcohol and Substance Abuse Prevention
       attempts to coordinate efforts of the Division of Law Enforcement , l)ivision of
       Social Servces , Branch of Judicial Servces , and Office of Indian Education
       Programs.

       Lack of area office and headquarters collocation

       The alcohol and substance abuse branches for IHS and BIA are located in
       Albuquerque , New Mexico and Washington , D. , respectively. A few IHS
       headquarters officials noted that collocation would make their work easier.
       Ten of the 24 area offices have difficulty coordinating because their
       counterparts are in different cities. In contrast , close proximity of area offices
       faciltates coordination. In some areas , BIA and IHS staff travel together to
       perform program reviews and conduct joint training.

       High staff turnover

       Although Congress established BIA' s Office of Alcohol and Substance
       Prevention with a permanent director position , five different temporary
       directors have been appointed since the office s inception in 1986. Officials
       from both IHS and BIA expressed frustration with the lack of a permanent
       director as mandated by the legislation.

       At the area and local levels , burnout is common as staff handle many,
       sometimes conflcting, assignments. Both IHS and BIA officials described their
      jobs as responding to "fire drils " and operating in a " crisis mentality. " Once
      trained , staff frequently leave to find higher- paying positions.
                                                              , "





       Lack of full-time BIA area alcohol and substance abuse coordinators

       Both IHS and BIA officials expressed frstration at the lack of full- time BIA
       area coordinators. For example , an IHS offcial stated We have not
       coordinated with BIA for 1 1/2 years. BIA does not have the staff to faciltate
       these activities. It would be better if BIA had funded coordinator positions.€

At th loallee    coordtin occu regardl of the efort of area offes and
headrt€
At the local level, coordination occurs because of community needs , not Memorandum
of Agreement requirements. Many officials cited coordination efforts with State , local
and private agencies. Often , the cooperation is in the form of information sharing and
referrals. "Social servce workers frequently interact with the State on family and
youth problems " a BIA official noted. In Alaska , BIA' s role is severely reduced as€
State agencies handle law enforcement and schools for the tribes and villages.
Nationally, coordination among IHS , States , and tribes has led to joint programs with
local schools and churches and agreements with hospitals and clinics. These
coordinated efforts allow the tribal programs to provide a greater range of servces to
their communities.€
LI         COORlINATION
AN HOLITIC APPROACH FOR
                                     UNER    CONT OF CAR
                                      TRTIG INIA ALHOL AN
S1JTANCE ABl1SE
Alcohol and substance abuse laws currently provide a broad spectrum of prevention
treatment, and aftercare servces and programs for adults, youth , and familes. The
IHS , through its mental health and substance abuse fuctions , is responsible for the
direct treatment of alcohol and substance abuse. The BIA utilzes its education, social
servces , and law enforcement components to provide prevention , referrals, and
aftercare.

Nevertheless , offcials from IHS and BIA agree that existing coordination is not
suffcient, and servces are neither integrated nor complete. l)espite the wide range of
programs and servces authorized by the legislation , these individual efforts do not
provide a comprehensive solution to Indian alcohol and substance abuse.



             COORDINATION IS ESENTI         FOR EFFECTVE PREVENTON,
                                   TRATMNT, AN AFfRCARE


            Regional Treatment
                 Centers




             Recretion Centers 
                        Detention Centers€
                  Teen Heath                           Triba Police, Triba
                     Centers                                 Court
                                              ""''''
                                                "'''             ",,,,
                                                                     '''''
                                                       ''' . ...............
                                                                           ''. ..
                                                                                ''''.   ...
                                                                                        ....... ...- .....," ......................
                                                                                            ... ''''            ''. ''.. ...            ."......
                                                                                                                                '', '', "    ''.




Presen, Indn alcohol and sustance abuse seres                   do not offer a comprehense
cont of care
While treatment is essential for any
successful alcohol or substance abuse
program , many offcials mentioned the
need for a strengthened continuum of€
care. Almost all IHS and BIA area€
coordinators want stronger prevention and aftercare programs.

The IHS and BIA currently fund some prevention activities in BIA schools such as
I)rug Abuse Resistance Education (I).A.R.E. ) and Basic Alcohol and Addiction
Beginning Education Studies (BABES). While these programs exist, officials
expressed the need to improve as well as add programs. Currently, more Indian
students attend public schools than BIA schools. Officials believe that some Indian
education and prevention funds should be used for public school prevention programs
designed specifically for Indian youth.

Afercare and transitional living programs , which include emergency shelters, halfway
houses , and detention centers , are insuffcient. For example , only 10 of the
33 authorized emergency shelters are operational. Offcials complained that site
selection , construction time, and staffing considerations hinder program development.
They also believe the abilty to expand existing programs and add new programs would
help extend the continuum of care.

Most ms offls      recommnd a more        holiti approach to th treatmnt of                                               alcohol
and sustance abuse

Offcials believe that treatment of alcohol€                                                                c..

and substance abuse purely as diseases is              9t?iljgfq!i ;1!lq ljgXqfitrm
not always successful and that programs          Lqiflf4tBiJtqR nZep                                             fft9J;qt
should address the multiple problems of       9Iq9JW?!i9ff ifqfrqnS                                        9qif P9ij                   iJ'i
individuals. Officials from 10 IHS area
offces believe that IHS should integrate
its mental health and social servces with
alcohol and substance abuse servces.
                                                         lili llt!1111 111
Some area offces already have integrated€
their servces, but headquarters branches remain separate.

Intervention teams and child protection teams are examples of effective coordination€
among IHS , BIA tribes , and other government entities , but not all area offices use
these approaches effectively. Generally, teams adopt a case management approach
for placement and treatment plans. Both intervention and child protection teams
consist of personnel from various disciplines , including chemical dependency, mental
health , social servces , medical servces , law enforcement , and the courts. This assures
treatment of an individual's total needs. For example , during child protection team
meetings , participants discuss alcohol and substance abuse as a factor in most child€
abuse and neglect cases. Many officials said that the child protection teams have done
the most to foster coordination and focus attention on the problems of substance€
abuse.€

Intervention teams focus on both adult and youth alcohol and substance abuse clients.€
One area offcial summaried the views of many who strongly support the team
concept for assessing and treating clients. He stated:

       Congress should know that the team approach has increased greatly our
       abilty to handle clients. We have gone from around 300 to 1 600 clients
      per year since 1986. We are able to get a client into treatment in half a
      day. Others , who does not use the team approach , say it takes them
       3 weeks. Plus it allows us to deal with multiple problems.
                    RECOMMENDATION€
The Indian Health Servce, in conjunction with the Bureau of Indian Afairs , should
review, update , and streamline the Memorandum of Agreement with the goal of
developing a practical plan of action. Consideration should be given to:



       (a)    updating and revising the Organizational Master Action Plan and area
              office workplans

       (b)    completing and/or updating Tribal Action Plans and Local Action Plans€

       (c)    collocating headquarters alcohol and substance abuse program offices

       (d)    resolving staff turnover problems€

       (e)    issuing the emergency shelter guidelines , and

       (f)    implementing an holistic approach for treating Indian alcohol and
              substance abuse.


AGENCY COMMNT€

The Public Health Servce agreed with the OIG recommendation and in its co=ents
                            some of the actions IHS has taken or plans to take to
on our draft report discusses
address the specific problems. The IHS is working actively with BIA on several issues.
Representatives from IHS and BIA met on June 3 , 1992 to revise the Memorandum
of Agreement. After review and comment , both agencies expect to sign the
Agreement in the near future. The IHS and BIA also met in June 1992 to discuss€
emergency shelters and in July to discuss detention centers. The emergency shelter
guidelines have not been issued yet.€
The IHS reported there are now Tribal Action Plans in place for 381 tribal groups out
of a possible 546 plans. The agency expects to complete 69 more Tribal and Local
Action Plans soon. The IHS is working dilgently to recruit and retain more well-
trained alcohol and substance abuse and mental health staff. According to IHS€
collocating IHS and BIA staff would involve significant tribal consultation.€

The complete text of the comments is contained in appendix B.€
                          APPENDIX A€
MEMORA1J OF AGREEME: STAT1S OF MAOR PROVISIONS AS
OF SPRIG 199

    The Memorandum of Agreement Review Process

    The Memorandum of Agreement directed BIA and IHS to review the
    Agreement annually within a month of its signing. A formal review of the
    original Agreement was completed in August 1988. No subsequent reviews
    have occurred.

    Area Office Workplans

    The Memorandum of Agreement requires that IHS and BIA area offices revise
    their workplans annually. Most area offces submitted one workplan with only€
    one update. This corresponds with the single review of the Agreement that was
    completed in 1988. The IHS officials stated that the focus on workplans has
    dimished since 1989 because "many of the original items being tracked in the
    workplans have been completed" and " IHSIBIAribal coordination is less than
    optimal in a number of areas.

    Tribal Action PlanslLcal Action Plans€


    Overall , only 241 Tribal Action Plans and 6 Local Action Plans , out of a
    possible 546 , have been completed. The Tribal Action Plans and Local Action€
    Plans establish a basis for coordination at the tribal level. According to the
    legislation , IHS servce unit directors and BIA agency and education
    superintendents were to enter into a Tribal Action Plan at the request of the
    tribe. The plan s purpose was " to coordinate resources and programs relevant
    to alcohol and substance abuse prevention and treatment. " Indian tribes were
    to develop a Tribal Action Plan 90 days after the Memorandum of Agreement
    publication in the  Federal Register. If this did not occur, IHS and BIA offcials
    were to develop a Local Action Plan for the tribe. Although five IHS area
    offces completed plans for all their tribal groups , two large area offces
    completed only 19 percent of their required plans.

    The Newsletter€

    According to P.L. 99- 570 , BIA was to publish and distribute a newsletter
    highlighting exemplary Indian alcohol and substance abuse programs. Partial
    funding was to come from IHS. This requirement has been partially and
    sporadically met. The OIG received copies of " Linkages " a bi-monthly
    newsletter dedicated to children s mental health issues. Beginning
                , "€




February 1987    Indians Against Drug Abuse " was published as an insert to
 Linkages. " The last edition of " Indians Against Drug Abuse" was distributed in€
June 1990.€


For more than a year, no newsletter was published while BIA established a new
contract. "PreventionQuarterly " replaced the former insert. It focuses on
alcohol and substance abuse prevention and treatment. The first issue was
published in September 1991.

Communitv Training

As the lead agency for providing community training, IHS developed a trainer
manual that included daily schedules, modules , and guidance on group behavior
and training techniques. AIl IHS area offices submitted documentation on
completed trainig. The OIG did not assess the quality or effectiveness of the€
training materials.€


Judicial Servces and Law Enforcement Training

As the lead agency in developing and implementing training for tribal judges
and law enforcement personnel ,   BIA contracted with the National Indian
Justice Center to develop a training program. The Center prepared a manual
that includes training schedules , laws , court cases , and other background
information.€

Identification of Programs€

In response to this requirement , IHS produced a listing of alcohol and
substance abuse programs for fiscal years 1988- 1992. The listings include the
program s name , director s name , contract information , program components
program costs, total staff, total number of counselors , and number of certified
counselors.

Emergem;y Medical Assessment€

 L. 99- 570   mandates " the emergency medical assessment and treatment of
every Indian youth arrested or detained by BIA or tribal law enforcement
personnel for an offense relating to or involving alcohol or substance abuse.
The IHS and BIA developed another Memorandum of Agreement to
coordinate these servces. Due to IHS staff limitations and continuity concerns
with BIA staff, the degree to which this was successfully implemented has never
been evaluated.
                      ,...                          ,, "

                                                       "




Minimum Standards Compliance Plan€

In consultation with Indian tribes , IHS and BIA were to establish minimum€
standards for alcohol and substance abuse programs. They did , in fact€
establish a work group that included representatives from Indian-operated€
alcohol and substance abuse programs , IHS area coordinators , and members of€
the IHS Alcoholism and Substance Abuse Program Branch. Although IHS€
co=itted key resourCes to this effort , BIA did not play an active role in€
developing or reviewig the guidelines. All Indian alcohol and substance abuse€
program managers received draft standards.€

Scope of the Problem€

Congress directed IHS , BIA and the tribes to determine the scope of the€
problem of alcohol and substance abuse among Indian people and to report on€
the financial and human costs of people directly or indirectly affected by such€
abuse. The IHS and BIA accomplished this task. First , the I)epartment of€
Interior s Offce of Program Analysis issued a November 1987 report entitled€
 Scope of the Problem and Economic Costs Interim Report. " Second , IHS€
contracted with the American Indian Health Care Association to conduct a€
follow-up study and released the study s final report in February 1992.€


Assessment of Resources€

According to the Memorandum of Agreement IHS , in cooperation with BIA€
and tribes , will conduct an assessment of the existing and needed resources and€
provide an estimate of funding necessary for a program of prevention of€
alcohol and substance abuse and the treatment of Indians affected by alcohol€
and substance abuse " Most IHS area offices developed a listing of resources€
that identify and group Federal , tribal , State , local , and private resources.€

Emergenq Shelters€

According to the Memorandum of Agreement BIA in cooperation with the€
IHS will promulgate standards by which the emergency sheltersno shall be€
established and operating, by September 1987 ,no " The standards have not been

issued. I)raft guidelines are stil under review.€

The Tribal Comprehensive Report€

According to the Memorandum of Agreement, the tribal comprehensive report€
was to " provide tribes with... (a) report of BIA and IHS alcohol and substance€
abuse data. " The Organizational Master Action Plan identified a work group of€
IHS and BIA representatives. The group was responsible for establishing€
guidelines for the collection ,   coordination , and distribution of this information.€
The work group developed draft materials , which were made available to the€
                                               , "€




area offces. These materials were never fialized ,    however. Only one IHS
area office used the draft guidelines to develop its tribal comprehensive report.

Child Abuse and Neglect

According to the Memorandum of Agreement BIA in cooperation with IHS
wil compile data relating to the number and tyes of child abuse and neglect
cases and the tye of assistance provided , reflecting those that involve , or
appear to involve , alcohol and substance abuse, those which are recurring and
those that involve other minor siblings. " As required , BIA issued a report
entitled " Fiscal Year 1988 Chid Abuse and Neglect Data " that includes
information on the total and suspected number of cases involving alcohol or
substance abuse.€


Curriculum Assessment

The Memorandum of Agreement requires that " BIA in cooperation with IHS
will provide technical assistance as necessary to develop and implement
currcula in kindergarten and grades 1 through 12 relating to alcohol and
substance abuse prevention and treatment." The IHS and BIA coordinated the
assessment of BIA-funded school curricula. The IHS conducted a study
entitled " School/Co=unity-Based Alcoholism and Substance Abuse Prevention
Survey, " and BIA used the study s results to develop the Drug Free Schools
program with the I)epartment of Education.

Crisis Intervention

The Memorandum of Agreement requires that " BIA in cooperation with the
IHS will provide for individual student crisis intervention in schools funded by
BIA and a reporting of all incidents relating to alcohol and substance abuse....
The BIA took the lead in developing a crisis intervention plan for its schools.
The plan coordinates school , tribal , IHS , and BIA programs to place students
who are in crisis into a treatment setting.

Model Juvenile Code

The Memorandum of Agreement directed BIA IHS , and the tribes to
cooperate in developing a model juvenile code. The National Indian Justice
Center developed a code under a BIA contract. Indian judges , tribes , and IHS
offcials reviewed the code before it was finalized.
APPENDIX B
 AGENCY COMMNT
(-,€
           DEPARTME OF HETH &. HUMA SERVICE                          I'blic Hea   Ser

                                                                     Memorandum€
               AUG 3 I 1992€
 Date€

 From€      Assiseane Secreeary for Healca



 Subjec€    Office of Inspeceor General (OIG)€ Drafe Reporc - Indian Alcohol
            and Subscance Abuse: Legis lacive
 Incenc and Realiey,
            oEI-09-92-000 10


            Accing Inspeceor General,   OS


            Aeeacaed are eae Public Healca Service commencs on cae                subj ecc
            drafc repore. We concur wica cae recommendaeion. In our
            commencs we discuss some accivicies undereaken by cae IHS
            respond co cae issues idencified in cae repore.



                                              (J'Iv€
                                             Mason ,
                                                   M.   . Dr. P.-€
           Accacamenc€
      PHS COMMENTS ON THE OFFICE OF INSPECTOR GEN   (OIG 1 DRAT
       REPORT " INDIA ALCOHOL AN SUBSTANCE ABUSE: LEGISLATIV
                 INTEN AN REAITY, " OEI- 09- 92- 00010

 General Comments€

 The OIG report cites   twmajor findigs: (1) the Indian
 Health Service (IRS) and the Bureau of Indian Affairs (BIA)
 have not achieved the level of coordination envisioned by
 Congress, and (2) limted coordation undezmes the
 continuum of care for treating alcoholism and substance abuse.
 IRS agrees that the five barriers to coordiation between IRS
 and BIA, that OIG has identified, have contributed
 signficantly to these findings.
Actions could be taken by IRS and BIA to facilitate
coordination by lessenig or elimnating some of these
barriers. Some of these actions could be accomplished rather
easily and others, for historical or political  reasons, would
be very difficult to take. . For example, IRS believes that€
hiring full-time BIA Alcoholism Coordinators would greatly€
improve coordination between these organizations. However,
collocation of IRS and BIA Area Offices is a barier not
easily addressed and would involve signficant tribal
consul tation.

Public Law (P

primily for
                   99-570 and its amendments   dicted    funds
               youth services, a previously identified gap in
programs initially established under the Indian Health.
Improvement Act, P. L. 94-   437.However, it must be noted that
significant gaps    remin in the continuum of care as each tribe
contracted for a slightly different focus in the scope of
work.   Access to IRS- funded prevention services; adult
treatment services, both inpatient and outpatient; adolescent
and adult group homes; halfway houses; and services targeting
sub- populations s ch as women, pregnant women, and elders
remin variable   from one commty to      the nex.  Al though
regional treatment centers (RTCs) are    curntly  funded for
adolescents, the majority of IRS- and BIA- funded program
continue to be contracted with individual tribes for services
for their respective memership in accordance with
  L.  93- 638. Coordation of resources among IRS, BIA and
other agencies remins critical
selection of additional services.
                                    in plang  for and site

The issue of merging the Mental Health Program and the
Alcoholism and Substance Abuse Program Branch (ASAPB) into a
single organizational entity comes up fro time to tie when
the coordination of increasingly complex medcal disciplines
is discussed. Curntly,    since these disciplines are housed
in branches that are part of IHS' Division of Clincal and
Preventive Services, there is considerable coordation of
efforts. At this time, IRS does not believe     tht
                                                  the
         ging of these tw disciplines
                                 at headquarers would result
in better coordination, since such coordiation already occus
at the      division   level.
The IHS believes that benefits remin at ths
maintaining separate disciplines while monitoring
                                                     tie
                                                    for
implementation- of the new IRS alcoholism stadards. These
stadards requre a muti-dsciplin        approach for treatment
of alcoholism, includig mental health and social work
services.  Conc=ent with ths effort, IR will focus on
imroving the recrutment and retention of alcoholism    and
                                                  efforts will
substance abuse, and mental health staff. These
address        cross-traing of
                          both disciplines.

The Appendix Section of the report lists the status of 12
major provisions of the Memorandum of Agreement (MOA) between
IHS and BIA. Although only 241 Tribal Action Plans (TAPs) of
a possible 546 were identified as completed, it should be
noted that nine of these plans were subtted by Alaska Native
Health Corporations representing a total of 149 tribal
entities.  Therefore,           cuently
                                   completed s are in place
                                             s and Local
for 381 tribal entities. In addition, 69
Action Plans (LAs) are in the development stage soon to be
confirmed .
The memorandum transmtting the report includes the Issues and
Responses prepared by OIG for the Senate Select Commttee on
Indian Affairs on Septemer 24,            1991. It
                                             includes a statement
that the P . L. 99- 570 appropriations totalled $12 million for
construction and renovation of adolescent treatment centers
for Fiscal Years (FY) 1989 - 1992. The actual amount
appropriated for constrction of RTCs for FY 1987 - 1992 was
$9. 612     million.

One final point should be considered when viewing the
availabili ty and quality of alcoholism and substance abuse
treatment provided by ms. The OIG review of the IHS reality
of implementation of the intent of Congress focused on the
MOA. aowever, IRS contiues to address several major item of
the legislation which are not included in the MOA, includig
RTCs, commty reili ta tion and aftercare. IRS, although
madated to collaborate with BIA on detention centers and
emergency shelters, does not have
implementing these program. IRS has and
                                           prim contiues to
                                           responsibility for
                                                        work
with BIA in workgroups and focused meetings on these topics.

OIG RECOMMATION
The IHS, in conjunction with BIA, should review, update, and
streamine the MOA with the goal of developing a practical
plan of action.        Consideration should be qiven to:
    a) Updating and revising the Organzational Master Action€
       Plan (OMA) and Area Office Workplans;€
    b) Comleting       and/or updating TAs and LAs;
    c) Collocating Headquarers ASAPB. offices;€
    d ) Resolving staff    turover problems;

    e). Issuing the emergency     shelter guidelines; and,

    f) Imlementing an holistic approach for treating Indian€
           alcohol and substance abuse.€

PHS COMMS
We concur with the OIG recommendation. Actions that IHS has
taken or plans to take . to address the specific issues
highlighted by OIG follow:

    a) Representatives of IHS and BIA ASAPB offices met on
       June 3, 1992    to develop a draft revision of the MOA.
       After the BIA and IRS staff review and comment on the
       draft and subsequent revisions, the MOA will be
           subtted  to both Agencies for signature. The target
       date for completion is October 1992. The proposed€
       revisions include specific language relative to€
       coordination of services for adolescents admtted to
       detention centers, emergency shelters and regional€
          treatment centers.
   b) Joint Area Workplans, as outlined in the MOA and OMA,
          are to reflect TAs.
                            The MOA        cuently
                                              being revised,
      will reinfQrce the IRS and BIA role in      updtig
                                                      TAPs or
          the development of LAs. National Headquers Offices
          of both BIA and IRS will identify a workgrup with Ara
          and local level representation to develop a formt and
          gudelines for workplans and LAs.
   c) The IRS     is advertising for a new ASB Chef       to
          located in Rockville. Interim plans include
          identification of staff within the cuent Headquarters
          Offices as the focal point for coordation with BIA
          staff. Ongoing joint IRS and BIA meetigs also
          continue regardg     emergency shelters and detention
          centers. Most recent meetings include an emergency
          shelter meeting in ' Aluquerqe on June 23- 25   and a
          detention center meeting in Washington, D.   C. on July 7.
d) Staff turover remains           a challenge   with both
                                 maintain coordiation with the
     BIA as a  prim
     Agencies. The   IHS    will

                           focus, assigng responsibilities to
     staff to assure continuity, even during future
     personnel changes. The IHS continues to rec=it well
     trained staff to address alcoholism and substance abuse
     problem; however, competing employers who offer more
     lucrative salaries and lighter workloads hider efforts
     to retain qualified staff.
e)                          remin a responsibility of the
     The emergency shelters €
     BIA. The IH continues to participate in Headquarers
     level meetings regardig shelter        standas.
                                                  This focus
     will be broadened to include Area level BIA and IHS
     coordination to develop services (taking into
     consideration other resources) to address the continuum
     of care.

f) The use of the €  te= "
                        holistic" in the present context
   is not clear. The desire is for broader coordination
   and integration of different disciplines, to bring to
   those with alcoholism, the most comprehensive aray of
   serVices. IRS agrees that closer          coordation
                                                  between
   mental health and substance abuse treatment services
   would greatly benefit the program. The greatest
     barier isthe shortge of mental health workers
     thughout IHS.  However, IRS believes also that the
   concept should not be limted only to mental health,
   but should involve other disciplines includig
   education, rehabilitation, physical and recreation
   therapy, medicine, social services, and others. The
   MOA between IHS and BIA, and the ASAPB standards
   adapted in May 1991, reflect a goal of multi-
     disciplina4 treatment.
                                        thugh its Division of
     The IRS coordinates services
     Clincal and Preventive Services, wi         th whch these
     disciplines are encompassed. Adolescent RTC reviews
     ar cuently conducted by a Headquarers team, which
     includes representatives from Mental Health. The
     recently hired Quality Assurance (QA) Officer for the
     ASB,   met with the Mental Health QA Officer to begin
     work on Area and program review elements, regaring
     imroved coordation among the Branches, to enhance
     patient services. Several Area Offices, for example,
     Alaska, California and Oklahoma, continue to function
     as a behavioral health model includig alcoholism and
     mental health as a single unit.
As noted in   ths report, coordtion     often occus at
the local level. This applies not only to BIA and IRS
interaction, but also services of IR, may of which
a:e often contracted by tribes.   Severl tribal   health
deparents now operate as a behavioral health model,
cominq    alcohol and mental. heal.th serices and   =ss
  ;n;n q of staff.
The TAs and LAs may (dependiq on independent     tribes)
simla:ly reflect a more   efficient and "holistic"
approach to service   delive, often cominq proqr
services and funds.   IR continues to support separte
Branches, but closer workiq relationships to proide
multi-disciplinar team    assessment and tratment
approaches.
